                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
June 22, 2012

Report Number: A-07-12-00387

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled AdminaStar Federal, Inc., Claimed Some Unallowable Supplemental
Executive Retirement Plan Costs for Medicare Reimbursement for Fiscal Years 2004 Through
2006. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-12-00387
in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandra Miller

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
              OFFICE OF

         INSPECTOR GENERAL





ADMINASTAR FEDERAL, INC., CLAIMED

SOME UNALLOWABLE SUPPLEMENTAL

EXECUTIVE RETIREMENT PLAN COSTS

FOR MEDICARE REIMBURSEMENT FOR

 FISCAL YEARS 2004 THROUGH 2006





                         Daniel R. Levinson

                          Inspector General


                             June 2012

                           A-07-12-00387

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                 EXECUTIVE SUMMARY


BACKGROUND

Anthem Insurance Companies, Inc. (Anthem), administers Medicare Part A, Part B, and Durable
Medical Equipment Regional Carrier operations under its subsidiaries, AdminaStar Federal, Inc.
(AdminaStar), and Anthem Health Plans of Maine, Inc. Both subsidiaries operate under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

On November 30, 2004, Anthem merged with WellPoint Health Network, Inc., and at that time,
Anthem changed its name to WellPoint, Inc. (WellPoint). Effective November 11, 2006, a
consolidation of certain Medicare operations occurred, forming a new subsidiary of WellPoint
called National Government Services (NGS), which included AdminaStar’s Medicare segment.
We are addressing this report to NGS; however, we will associate the term AdminaStar with our
finding and recommendation for the supplemental executive retirement plan (SERP) costs
claimed by AdminaStar for fiscal years (FY) 2004 through 2006.

Anthem sponsored a SERP to provide each participant in the plan with the benefits the
participant would have received under the pension plan except for certain limitations imposed by
the Internal Revenue Code of 1986, as amended. The SERP was thus designed to restore
benefits lost due to the Internal Revenue Code limits under the regular qualified pension plan.
We performed a prior SERP costs claimed audit at AdminaStar (A-07-05-00195, issued
January 20, 2006) for FYs 2000 through 2003.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards (CAS) as required by the Medicare contracts.

OBJECTIVE

Our objective was to determine the allowability of SERP costs that AdminaStar claimed for
Medicare reimbursement on a pay-as-you-go basis for FYs 2004 through 2006.

SUMMARY OF FINDING

The SERP costs that AdminaStar claimed for Medicare reimbursement on a pay-as-you-go basis
for FYs 2004 through 2006 were not always allowable because AdminaStar did not amortize its
lump-sum benefit payments when claiming SERP pension costs for this time period.
AdminaStar claimed $161,454 in SERP costs; however, we determined that allowable Medicare
SERP costs were $155,470. Thus, AdminaStar claimed $5,984 in unallowable SERP costs for
Medicare reimbursement for FYs 2004 through 2006.

RECOMMENDATION

We recommend that AdminaStar revise its Final Administrative Cost Proposals for FYs 2004
through 2006 to reduce its claimed SERP costs by $5,984.
                                               i
AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendation
and stated that it would work with CMS on settlement of the $5,984. NGS’s comments are
included in their entirety as the Appendix.




                                             ii
                                      INTRODUCTION


BACKGROUND

Anthem Insurance Companies, Inc. and Medicare

Anthem Insurance Companies, Inc. (Anthem), administers Medicare Part A, Part B, and Durable
Medical Equipment Regional Carrier operations under its subsidiaries, AdminaStar Federal, Inc.
(AdminaStar), and Anthem Health Plans of Maine, Inc. Both subsidiaries operate under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

On November 30, 2004, Anthem merged with WellPoint Health Network, Inc., and at that time,
Anthem changed its name to WellPoint, Inc. (WellPoint). Effective November 11, 2006, a
consolidation of certain Medicare operations occurred, forming a new subsidiary of WellPoint
called National Government Services (NGS), which included AdminaStar’s Medicare segment.
We are addressing this report to NGS; however, we will associate the term AdminaStar with our
finding and recommendation for the supplemental executive retirement plan (SERP) costs
claimed by AdminaStar for fiscal years (FY) 2004 through 2006.

Anthem sponsored a SERP to provide each participant in the plan with the benefits the
participant would have received under the pension plan except for certain limitations imposed
by the Internal Revenue Code of 1986, as amended. The SERP was thus designed to restore
benefits lost due to the Internal Revenue Code limits under the regular qualified pension plan.
We performed a prior SERP costs claimed audit at AdminaStar (A-07-05-00195, issued
January 20, 2006) for FYs 2000 through 2003.

CMS reimburses a portion of its contractors’ SERP costs. In claiming SERP costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards (CAS) as required by the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of SERP costs that AdminaStar claimed for
Medicare reimbursement on a pay-as-you-go basis for FYs 2004 through 2006.

Scope

We reviewed AdminaStar’s SERP costs claimed on its Final Administrative Cost Proposals
(FACP) for FYs 2004 through 2006, which totaled $161,454. We focused on this time period,
which began where the prior audit left off and ran through the discontinuance of the AdminaStar
SERP, because it had not been reviewed in previous Office of Inspector General audits.

Achieving our objective did not require that we review AdminaStar’s internal control structure.
However, we reviewed the controls related to the SERP costs that AdminaStar claimed for

                                                1

Medicare reimbursement to ensure that SERP costs were allowable in accordance with the FAR
and the CAS.

We performed onsite audit work at AdminaStar’s office in Louisville, Kentucky, in April 2011.

Methodology

We obtained information from AdminaStar regarding benefit payments associated with the
SERP costs for FYs 2004 through 2006, for the Total Company including the Medicare segment.
We calculated Medicare line of business percentages based upon documentation provided by
AdminaStar. We calculated the allowable amortizable benefit for participants who received a
lump-sum benefit payment in accordance with the FAR and CAS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

The SERP costs that AdminaStar claimed for Medicare reimbursement on a pay-as-you-go basis
for FYs 2004 through 2006 were not always allowable because AdminaStar did not amortize its
lump-sum benefit payments when claiming SERP pension costs for this time period.
AdminaStar claimed $161,454 in SERP costs; however, we determined that allowable Medicare
SERP costs were $155,470. Thus, AdminaStar claimed $5,984 in unallowable SERP costs for
Medicare reimbursement for FYs 2004 through 2006.

SUPPLEMENTAL EXECUTIVE RETIREMENT PLAN

Federal Requirements

To be allowable for Medicare reimbursement, pension costs must be (1) measured, assigned, and
allocated in accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the
FAR.

According to CAS 412-50(b)(3), the cost of defined-benefit pension plans that is accounted for
under the pay-as-you-go cost method shall be measured as the sum of the net amount for any
periodic benefits paid for that period and the level annual installment required to amortize any
lump-sum benefit payments over 15 years.

Unallowable Supplemental Executive Retirement Plan Costs Claimed

AdminaStar claimed $5,984 of unallowable SERP costs for Medicare reimbursement for FYs
2004 through 2006 because it did not amortize its lump-sum SERP benefit payments in
accordance with the CAS. During the audit period, AdminaStar claimed pay-as-you-go SERP

                                                2

costs of $161,454 for Medicare reimbursement. We calculated the allowable SERP costs based
on periodic payments made to SERP recipients, plus a 15-year amortization of lump-sum SERP
payments in accordance with CAS 412-50(b)(3). Accordingly, we determined that the allowable
pay-as-you-go SERP costs for FYs 2004 through 2006 totaled $155,470.

The table below compares allowable SERP costs with the SERP costs claimed on AdminaStar’s
FACPs.

              Comparison of Allowable SERP Costs and Claimed SERP Costs

                                 Allowable     Claimed by
                   Fiscal Year   Per Audit     AdminaStar       Difference
                      2004        $49,489        $63,166        ($13,677)
                      2005         56,112         97,903         (41,791)
                      2006         49,869          385            49,484
                      Total      $155,470       $161,454         ($5,984)

RECOMMENDATION

We recommend that AdminaStar revise its FACPs for FYs 2004 through 2006 to reduce its
claimed SERP costs by $5,984.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendation,
and stated that it would work with CMS on settlement of the $5,984. NGS also offered technical
comments which we incorporated into the report as appropriate. NGS’s comments are included
in their entirety as the Appendix.

                                     OTHER MATTER

AdminaStar closed its SERP on December 31, 2005, and moved its participants into other
SERPs. AdminaStar claimed SERP costs on its FACP through FY 2006. However, as of
October 1, 2006, AdminaStar had a remaining balance for the unamortized SERP payments of
$7,817,386 ($406,746 for the Medicare segment and $7,410,640 for the “Other” segment).




                                              3

APPENDIX

                                                                                                        Page 1 of 2


                                   APPENDIX: AUDITEE COMMENTS




....,LNational c~vernm;rrt
.JI{"        sennces.
    A CMS Contracted Agent                                                       Medicare
    National Government ServiCE!S, Inc.
    www.NCSMedicare.com



   May25, 2012

   Mr. Patrick J. Cogley
   Regionallnspector General for Audit Services
   Office of Audit Services Region VII
   601 East 12th Street, Room 0429
   Kansas City, Missouri 64106

   Reference: Report Number A-07-12-00387

    Dear Mr. Cogley:

   We have received the draft audit report from the Inspector General entitled "Administar Federal Inc.,
   Claimed Some Unallowable Supplemental Executive Retirement Plan Costs for Medicare
   Reimbursement for Fiscal Years 2004 Through 2006" and thank you for the opportunity to respond.

    We concur with the finding and recommendation outlined in the report and will work with the Centers
    for Medicare & Medicaid Services on settlement of the noted item (approximately $6,000). In
    reviewing the report, we believe the accuracy and clarity of the report would be enhanced with the
    adoption of the following proposed revisions:

         •    In various places throughout the report, the company is referred to as "Administar". Please
              correct this to "AdminaStar".

         •    In the "Executive Summary" section (page i) within the "Background" caption, the second line
              of the second paragraph reference to "(Wellpoint)" should be "(WellPoint)"- please capitalize
              the "P". Please correct this on page 1 as well in the "Introduction" section.

         •    In the "Executive Summary" section (page i) within the "Background" caption, the first line of
              the third paragraph does not properly reflect the purpose of the plan. The use of the words "to
              provide deferred compensation to" is incorrect. Please restate to: "Anthem sponsored a SERP
              to provide each Participant in the Plan with the benefits the Participant would have received
              under the Pension Plan except for certain limitations imposed by the Internal Revenue Code of
              1986, as amended." This also should be corrected on page 1; third paragraph in the
              "Introduction" section.




                                                                                             CA#S/
Page 2 of 2

